HHS/OIG, Audit -"Audit of Substance Abuse and Mental Health Services Administration's Grant Number SMX060048J Awarded to the Washington State Department of Social and Health Services,"(A-10-03-01001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Substance Abuse and Mental Health Services Administration's Grant Number SMX060048J Awarded to the Washington
State Department of Social and Health Services," (A-10-03-01001)
June 27, 2003
Complete
Text of Report is available in PDF format (437 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit of costs claimed under a Substance Abuse and Mental Health Services Administrations
(SAMHSA) grant number SMX060048J awarded to the Washington Department of Social and Health Services, Mental Health Division
(State) in the amount of $492,000.  We found that $42,509 in unallowable costs were claimed that included:  (i)
$11,785 for prior period costs, (ii) $10,000 for a duplicate claim of prior period costs, (iii) $19,996 for grant funds
obligated but not expended, and (iv) $728 for costs incorrectly allocated to the grant.  We also found that the
State claimed $9,575 in unallowable expenditures from prior grant periods under the FY 2000 PATH grant.  We recommended
that the State refund $52,084 to the Federal Government; $42,509 for FY 2001 and $9,575 for FY 2000 PATH grants.